<html>
<title> - RACING TO REGULATE: EPA'S LATEST OVERREACH ON AMATEUR DRIVERS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                          RACING TO REGULATE: 
               EPA'S LATEST OVERREACH ON AMATEUR DRIVERS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 15, 2016

                               __________

                           Serial No. 114-65

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                                      ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-835 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                              
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                       Subcommittee on Oversight

                 HON. BARRY LOUDERMILK, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DON BEYER, Virginia
    Wisconsin                        ALAN GRAYSON, Florida
BILL POSEY, Florida                  ZOE LOFGREN, California
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
DARIN LaHOOD, Illinois
LAMAR S. SMITH, Texas












                            C O N T E N T S

                             March 15, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barry Loudermilk, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     7

Statement submitted by Representative Donald S. Beyer, Jr., 
  Ranking Minority Member, Subcommittee on Oversight, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    20
    Written Statement............................................    20

                               Witnesses:

                                Panel I

The Honorable Patrick McHenry, Member, U.S. House of 
  Representatives
    Oral Statement...............................................    22
    Written Statement............................................    24

                                Panel II

Mr. Christopher Kersting, President and CEO, Specialty Equipment 
  Marketing Association
    Oral Statement...............................................    27
    Written Statement............................................    31

Mr. Ralph Sheheen, Managing Partner and President, National Speed 
  Sport News
    Oral Statement...............................................    39
    Written Statement............................................    42

Mr. Brent Yacobucci, Section Research Manager, Energy and 
  Minerals Section, Congressional Research Service
    Oral Statement...............................................    46
    Written Statement............................................    48


Discussion.......................................................    53

            Appendix II: Additional Material for the Record

Documents submitted for the record...............................    65

 
                          RACING TO REGULATE:
               EPA'S LATEST OVERREACH ON AMATEUR DRIVERS

                              ----------                              


                        TUESDAY, MARCH 15, 2016

                  House of Representatives,
                  Subcommittee on Oversight
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:15 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barry 
Loudermilk [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Loudermilk. The Subcommittee on Oversight will 
come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``Racing to Regulate: 
EPA's Latest Overreach on Amateur Drivers.'' I recognize myself 
for five minutes for an opening statement.
    Good morning. Today's hearing is an examination of the 
EPA's efforts to use the Clean Air Act to regulate amateur 
racecars, which is yet another example of EPA regulatory 
overreach. In this case, the EPA is attempting to enforce the 
Clean Air Act in a way that Congress never intended, and is 
doing so in a covert manner.
    Earlier this year, the EPA issued a proposed rule to 
establish greenhouse gas and fuel consumption regulations for 
new on-road medium- and heavy-duty trucks. Hidden within the 
629-page proposed rule on page 584, in the miscellaneous 
section, is a sentence that states: ``Certified motor vehicles 
and motor vehicle engines and their emission control devices 
must remain in their certified configuration even if they are 
used solely for competition or if they become non-road vehicles 
or engines.'' The impact of that sentence cannot be 
understated. The proposed regulation would affect any vehicle 
used for racing that started as a street or production car.
    Racecars are fast and have been modified to be fast and 
safe. As a result, racecars strictly used at the track are not 
typically emissions compliant. Any racecar that has a VIN 
plate, installed at the factory, can no longer be out of 
compliance under this proposed rule. This applies to racecars 
used strictly at drag strips, oval tracks, and other types of 
racing, with no intention of ever seeing the open road again.
    The proposed regulation would have a devastating effect on 
the motorsports industry and the industry that supplies the 
products, technology, and services for the racing community. 
The specialty equipment automotive aftermarket employs over one 
million Americans across the nation representing nearly $1.4 
billion in sales of racing-related products annually.
    In my home State of Georgia, the Atlanta Motor Speedway 
contributes $455 million a year to the Atlanta economy. The 
South Georgia Motorsports Park located in Cecil, Georgia, 
attracts over 200,000 people a year, generating an estimated 
$37 million into the economy of South Georgia.
    In addition to the major raceways throughout our country, 
there are thousands of local tracks that would be devastated by 
this new regulation. For example, the Dixie Speedway in my 
district in Woodstock, Georgia, is a popular community track 
that brings in 150,000 visitors and generates more than $40 
million in economic activity every year. If the EPA uses this 
regulation to dismantle the race equipment manufacturing 
industry, drivers at tracks like these would be unable to find 
many of the parts that they need for their racecars. If the 
Dixie Speedway was to go out of business, our community would 
lose tremendous amounts of commercial activity, tourism, and 
recreation that have been part of our local economy and culture 
since the Speedway opened in 1968.
    What is most frustrating to me is the secretive manner that 
the EPA attempted to sneak in this clarification of authority. 
They deliberatively did this under the radar of the American 
people. The EPA violated the Administrative Procedures Act 
requiring adequate opportunity for the public and interested 
parties to comment on proposed rules. There was no mention of 
this significant policy change in the table of contents of the 
629-page rule. It was included with other minor issues in 
Section 14, Other Proposed Regulatory Provisions.
    The proposed rule establishes next-generation greenhouse 
gas emissions standards for medium- and heavy-duty engines and 
vehicles. The inclusion of an unrelated topic within a series 
of rulemakings is unprecedented and non-germane. The EPA is 
seeking to change policy that has been in place for decades and 
does not explain the purpose for changing language to prohibit 
racecars from being emissions noncompliant.
    To change policy without proper notice would likely be 
arbitrary, capricious, and in violation of the Administrative 
Procedures Act. EPA failed to provide any notice to the 
regulated industry in this case.
    To date, millions of cars have been modified to be used 
strictly at the race track. Products have been manufactured and 
installed on race-only vehicles since the automobile was 
invented.
    Automotive racing is part of the soul of this country. It 
is our responsibility to shine a light on the EPA's attempt to 
eliminate a part of who we are as a nation with one sentence in 
an unrelated rule.
    I thank the witnesses for being here today, particularly 
Mr. McHenry, who introduced H.R. 4715, which clarifies the 
intent of Congress in the Clean Air Act to exclude vehicles 
used solely for competition. Mr. McHenry, we appreciate your 
leadership on this important issue.
    [The prepared statement of Chairman Loudermilk follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
    Chairman Loudermilk. With that, I recognize the Ranking 
Member for his opening statement.
    Mr. Beyer. Thank you, Chairman Loudermilk. I appreciate 
your holding this hearing today.
    While I admit the title of this hearing, ``Racing to 
Regulate,'' is catchy, I really don't think the Environmental 
Protection Agency has been racing ahead to apply a 40-year-old 
provision of the Clean Air Act, and I don't think the EPA has 
attempted to throttle amateur drivers. In 46 years of enforcing 
the Clean Air Act, the agency has never targeted racecar 
drivers, and, I don't believe the EPA's intent in clarifying 
the legal authority of these regulations last July suggests 
that they're going to begin to do that today, in spite of what 
the hearing title suggests.
    I too have great empathy for the racing community. I've 
been a racecar enthusiast my whole life. I have pictures of my 
father racing on the beach at Daytona and my mother, because 
her brother was on the same racing team. I grew up going to 
stock car races at Darlington and Dover and Bristol and 
Richmond, and Manassas, especially, and I ran the family's SCCA 
racing teams in the 1980s. By the way, I checked last night. I 
am proud of my family relationship with Alexander Rossi, who is 
the first person ever, American or otherwise, to have both an 
IndyCar ride and a Formula I ride in the same season. Let's 
hope he wins.
    But the public health benefits of the 1970 Clean Air Act 
are clear, and the EPA enforcement actions against those that 
violate these laws are necessary. According to the Centers for 
Disease Control and Prevention, these regulations have resulted 
in 11,000 fewer deaths due to reduced vehicle emissions of 
carbon monoxide. Efforts to violate these regulations willfully 
have serious environmental consequences.
    I understand, of course, that the EPA's recent 
clarification of their jurisdictional authority under the Clean 
Air Act has sparked widespread concern within the racing 
industry.
    EPA had been called to witness--they were not called today, 
which is a disadvantage, because in reading a lot of the EPA 
stuff, I understand that this has been their interpretation the 
entire 40-plus years. Hopefully through our witness from the 
Congressional Research Service we'll be able to get the EPA's 
perspective.
    But we all have a shared interest in preventing companies 
from manufacturing, selling or installing aftermarket 
automobile parts that result in illegally modified automobiles 
or trucks, not on racecar tracks but in our neighborhoods. 
Think ``Fast and Furious 1, 2, 3, 4, 6, 7.''
    The EPA has attempted to focus their enforcement actions on 
those who violate motor vehicle emissions laws by targeting 
manufacturers, sellers, and installers of aftermarket parts 
that are used to turn motor vehicles into hotrods used on 
public roads and highways. Since 2007 the EPA has had three 
large enforcement actions against enforcement manufacturers--
aftermarket manufacturers who have sold a total of 167,000 
products intended to violate environmental regulations. 
Unsurprisingly, amateur racing continues after each of these 
actions unaffected by the EPA's actions.
    Now, the issue here of course is not NASCAR, it is not 
IndyCar. The issues don't affect them at all. And the EPA is 
intending simply to clarify environmental regulations that make 
it illegal to decertify a motor vehicle and alter vehicles' 
emissions control in violation of the law, and I presume, for 
instance, that no one here condones what is known as ``coal 
rolling'' or ``rolling coal,'' which is the process of altering 
a vehicle's exhaust to intentionally emit heavy black clouds of 
smoke as the vehicle rolls down the highway, suburban street, 
or other roadway.
    But we clearly have a problem, Mr. Chairman. EPA's 46-year-
old interpretation of the Clean Air Act and its clarification 
this year is that we cannot ever modify the emissions system of 
a vehicle initially certified for use on public roads, and this 
of course makes no sense, and it's not the way EPA has applied 
the rule: no enforcement against amateur racecar drivers ever, 
and none intended in the future.
    So let me point out, there are many, many, many more 
amateur racecars and racecar drivers than there are those 
represented by NASCAR's top level or IndyCar across the country 
in thousands of counties, amateur races on Friday and Saturday 
nights. It's bad for the rule of law and for our understanding 
as law-abiding citizens to have laws or regulations on the 
books that we do not enforce, and it is hard to believe that 
this is ever the intention of Congress to ban amateur racing.
    So I look forward to listening to Mr. McHenry's testimony 
about his legislation and from our witnesses today.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. Beyer follows:]

  Prepared Statement of Subcommittee on Oversight Ranking Member Don 
                                 Beyer
    Thank you Chairman Loudermilk. I appreciate you holding this 
hearing today.
    While I admit the title of this hearing, ``Racing to Regulate'' is 
catchy, I don't think the Environmental Protection Agency (EPA) has 
been racing ahead in applying forty year old provisions of the Clean 
Air Act, nor do I think EPA has attempted to throttle amateur drivers 
at all. In 46 years of enforcing the Clean Air Act, the agency has 
never targeted racecar drivers per se, and, I don't believe the EPA's 
intent in clarifying the legal authority of these regulations last July 
suggests that they will begin to do that today, in spite of what the 
hearing title suggests.
    I have great empathy for both the racing community and the 
automotive industry and its partners. I have been a racing car 
enthusiast my entire life. My father was a founding member of NASCAR. I 
have made my living running my family's automobile dealership. But I 
strongly believe that individuals, as well as the automotive industry, 
must comply with established environmental laws whether they agree with 
them or not.
    The public health benefits of the 1970 Clean Air Act (CAA) 
regulations are clear and the EPA's enforcement actions against those 
that violate these laws are necessary. According to the Centers for 
Disease Control and Prevention (CDC) these regulations have resulted in 
more than 11,000 fewer deaths due to reduced vehicle emissions of 
carbon monoxide (CO), for instance. Efforts to violate these 
regulations have serious environmental consequences.
    I understand that EPA's recent clarification of their 
jurisdictional authority under the Clean Air Act has sparked widespread 
concern within the racing industry. Of course if the EPA had been 
called as a witness to this hearing they could respond to questions 
about this issue themselves. Instead, our witnesses and our Members 
will be left to engage in conjecture about EPA's intent.
    We all have a shared interest in preventing companies from 
manufacturing, selling or installing aftermarket automobile parts that 
result in illegally modified automobiles or trucks that speed loudly 
through our neighborhoods, endangering residents and polluting our 
streets. I believe the Specialty Equipment Market Association (SEMA), 
which represents the automotive specialty and performance parts 
industry, agrees with that position and so does the EPA.
    The EPA has attempted to maximize their enforcement actions against 
those who violate motor vehicle emissions laws by targeting 
manufacturers, sellers, and installers of aftermarket parts that are 
used to turn motor vehicles into racecars that are used on public roads 
and highways. Since 2007 the EPA has had three large enforcement cases 
against aftermarket manufacturers who have sold a total of 167,000 
products intended to violate environmental regulations.
    Unsurprisingly, amateur racing continued after each of these 
actions unaffected by the EPA's enforcement actions.
    This is why I believe it is clear that we share the same 
objectives: to protect the environment and the public's health while 
maintaining the nation's rich racing tradition in a safe and 
responsible manner. No one, including the EPA, is attempting to shut 
down the Daytona 500 or other professional races. Under the Clean Air 
Act NASCAR and other professional racecars are not ``motor vehicles'' 
by definition and have been exempt from complying with EPA emissions 
control regulations. The issues we are discussing today will not impact 
these professional racecars or racers in any way. EPA is intending to 
simply clarify environmental regulations that make it illegal to de-
certify a motor vehicle and alter a vehicle's emissions control devices 
in violation of the law.
    I presume, for instance, that no one here condones what is known as 
``coal rolling,'' or ``rolling coal,'' which is the process of altering 
a vehicle's exhaust to intentionally emit heavy black clouds of smoke 
as the vehicle rolls down the highway, suburban street, or other 
roadway.
    Lastly, while I find this discussion interesting I am not sure any 
of the issues we are discussing today fall within the jurisdiction of 
the Science Committee. I am also disappointed that the Majority chose 
not to invite any representative from the EPA as a witness today to 
actually help us understand their perspective on the history of their 
enforcement in this area and the intent of their clarification on this 
issue last July.
    Thank you Mr. Chairman. I yield back.

    Chairman Loudermilk. Thank you, Mr. Beyer.
    I now recognize the Chairman of the full Committee, Mr. 
Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    The Science Committee has held many hearings on the 
regulatory overreach of the Environmental Protection Agency 
during this Administration. Unfortunately, the EPA once again 
now attempts to unnecessarily and unlawfully regulate the lives 
of the American people.
    The Committee has often revealed how the EPA's regulatory 
overreach will cost billions of dollars, cause financial 
hardship for American families, and diminish the 
competitiveness of American employers, all with no significant 
benefit to climate change, public health, or the economy.
    The EPA has rushed through many costly and burdensome 
regulations throughout this administration. Examples include 
the strict new National Ambient Air Quality standard for ozone, 
Waters of the U.S., and the Clean Power Plan.
    Today, we will hear about how the EPA wants to expand its 
Clean Air Act authority and enforce it against amateur racecar 
drivers in the industry that supplies amateur racers with parts 
and modifications. This is an industry that supports American 
small business jobs, manufacturing, and technology.
    For the first time, the EPA seeks to impose the Clean Air 
Act on all non-road vehicles used for racing competitions. This 
includes vehicles that have been legally deregistered so they 
can be modified for use in racing. Congress never intended the 
Clean Air Act to apply to these vehicles, and the law is clear 
on this point. Racecars are not regulated by this law. However, 
EPA has now put into question the legality of non-road vehicles 
modified to become racecars.
    The EPA's proposed expansion of authority demonstrates the 
agency's willingness to resort to backdoor and secretive means 
to push its agenda. Agency officials buried this new provision 
in a proposed rule on emissions standards for medium- and 
heavy-duty truck, a regulation that is unrelated to vehicles 
modified for racing. In fact, it took industry stakeholders 
beyond the official comment period to discover that the EPA had 
even included this provision in the rule.
    EPA's actions show that the agency acted in an arbitrary 
and capricious manner, in violation of the Administrative 
Procedures Act, because the agency failed to give proper notice 
to the stakeholders that would be affected by this provision.
    Even EPA Administrator Gina McCarthy herself seemed to be 
caught off guard by her own agency's latest power grab. In a 
hearing before the House Agriculture Committee, Administrator 
McCarthy correctly asserted that EPA does not have Clean Air 
Act authority over non-road vehicles modified for competition. 
If the Administrator agrees that the agency does not have this 
authority, then why would the EPA even propose this rule?
    This regulation of competition vehicles will have a 
devastating impact on amateur racers and the manufacturers that 
produce components for this industry. NASCAR is one of the most 
popular spectator sports in the country with over 75 million 
fans. Amateur racers are often the minor leagues for NASCAR 
drivers. Nearly all businesses that manufacture components for 
this industry could become the subject of enforcement actions 
by the EPA. This overreach has the potential to result in 
billions of dollars in enforcement penalties simply for the 
production of items that have been legally used by amateur 
racers for years. It will stifle technological advances in this 
field and cause the loss of many American jobs.
    Mr. Chairman, it is a pleasure to welcome the Deputy 
Majority Whip Patrick McHenry to today's hearing, and I thought 
members of this Committee might be interested in knowing, as I 
just learned a few minutes ago, that Congressman McHenry 
actually was an intern for the Science Committee in the summer 
of 1995. So on those grounds, I think he should be made an 
honorary member today and always welcomed to this Committee's 
procedures.
    Mr. McHenry. I'm honored.
    Chairman Smith. Last week, Representative McHenry 
introduced H.R. 4715, the Recognizing the Protection of 
Motorsports Act of 2016. This bill would prevent the EPA from 
taking action on amateur racing under the Clean Air Act. I 
support Representative McHenry's efforts to assist amateur 
racers and the industry, technology and jobs that rely on them.
    As we have seen countless times, EPA's regulatory agenda is 
bad for the American economy and for the American people. We 
simply cannot allow a federal agency to assume power that 
Congress has not given it. The Science Committee will continue 
to rein in the EPA when it oversteps its authority. There is no 
public scientific justification presented for this regulation. 
Contrary to the EPA's agenda, Americans want to be free from 
overly burdensome regulations, not tied up in more.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Chairman Smith follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    Chairman Loudermilk. Thank you, Mr. Chairman.
    The Chair now recognizes the Ranking Member of the Full 
Committee, Ms. Johnson, for a statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I am a strong supporter of the Clean Air Act Amendments 
that went into effect in 1970 during a Republican Presidential 
Administration. Those federal regulations have saved many 
thousands of lives, removed tons of toxic contaminants from our 
environment, and continue to have a positive impact on the 
everyday lives of our citizens. They also include key 
provisions regarding the regulation of motor vehicles' emission 
control devices, which is at the heart of the issue we are 
discussing today.
    It seems that the Environmental Protection Agency's 
clarification of these provisions last July generated a lot of 
interest in the racing car and aftermarket car parts 
industries. They feared this was a new rule that was seeking to 
expand EPA authority under the Clean Air Act and would result 
in EPA enforcement actions against individual drivers and 
racecars. However, the language of the law has not changed, and 
the EPA has tried to make clear that last July's statement was 
simply a clarification of existing law. EPA has also said that 
they have never attempted to enforce these provisions by going 
after individuals and that they do not plan to do so in the 
future.
    It is unclear to me that this hearing would even have been 
necessary if the Majority had even reached out to EPA for 
information on this issue prior to calling this hearing. For 
reasons known only to them, the Majority did not seek a 
briefing from EPA on this topic and the Majority did not ask 
the EPA to testify at this hearing. While the Majority has said 
that this hearing is supposed to examine the scientific 
underpinnings of the EPA decision to enforce the Clean Air Act, 
the Majority also chose not to invite any scientists to this 
hearing. Instead, they invited the president of the industry 
trade group that is engaged in a public dispute with the EPA 
over this issue and a race announcer, who has a right to 
advocate his views, but is certainly not a scientist.
    Mr. Chairman, whether you agree with the EPA's position on 
this issue or not, I would have hoped that you would have 
wanted to understand the views of the agency that you are 
castigating in public and alleging once again has engaged in 
regulatory overreach. As the Ranking Member of the Science 
Committee, I wish that we would routinely attempt to actually 
understand the issues we look into fully from all perspectives 
before we offer sweeping condemnation, or support of 
legislation, on issues or agency actions. That does not appear 
to be the path the Majority has chosen to follow today, and as 
such, it is just another missed opportunity for responsible 
oversight.
    Thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]

          Prepared Statement of Full Committee Ranking Member
                         Eddie Bernice Johnson

    Mr. Chairman, I am a strong supporter of the Clean Air Act 
amendments that went into effect in 1970 during a Republican 
Presidential Administration. Those federal regulations have saved many 
thousands of lives, removed tons of toxic contaminants from our 
environment, and continue to have a positive impact on the everyday 
lives of our citizens. They also include key provisions regarding the 
regulation of motor vehicles' emission control devices, which is at the 
heart of the issue we are discussing today.
    It seems the Environmental Protection Agency's (EPA's) 
clarification of these provisions last July generated a lot of interest 
in the racing car and aftermarket car parts industries. They feared 
this was a new rule that was seeking to expand EPA authority under the 
Clean Air Act and would result in EPA enforcement actions against 
individual drivers and racecars. However, the language of the law has 
not changed, and the EPA has tried to make clear that last July's 
statement was simply a clarification of existing law. EPA has also said 
that they have never attempted to enforce these provisions by going 
after individuals and that they do not plan to do so in the future.
    It is unclear to me that this hearing would even have been 
necessary if the Majority had ever reached out to EPA for information 
on this issue prior to calling this hearing. For reasons known only to 
them, the Majority did not seek a briefing from EPA on this topic and 
the Majority did not ask the EPA to testify at this hearing.
    While the Majority has said this hearing is supposed to ``examine 
the scientific underpinnings'' of the EPA decision to enforce the Clean 
Air Act, the Majority also chose not to invite any scientists to this 
hearing. Instead, they invited the President of the industry trade 
group that is engaged in a public dispute with the EPA over this issue 
and a race announcer, who has a right to advocate his views, but is 
certainly not a scientist.
    Mr. Chairman, whether you agree with the EPA position on this issue 
or not, I would have hoped that you would have wanted to understand the 
views of the Agency that you are castigating in public and alleging--
once again--has engaged in regulatory overreach.
    As the Ranking Member of the Science Committee, I wish that we 
would routinely attempt to actually understand the issues we look into 
fully - from all perspectives - before we offer sweeping condemnation, 
or support of legislation, on issues or agency actions. That does not 
appear to be the path the Majority has chosen to follow today. As such, 
it is another missed opportunity for responsible oversight.
    Thank you. I yield back.

    Chairman Loudermilk. The gentlewoman yields back, and I'd 
like to remind all of the members of our hearing today, today 
is an initial hearing to hear from stakeholders who are clearly 
being affected by this EPA proposal, and I think it's important 
that we hear from those who are being affected. Unfortunately, 
the Minority has decided to attack the Majority on this, but I 
think it's important that we work together to actually hear 
from the stakeholders, hear from those, and the Minority had 
every right to invite the EPA to today's hearing. I would ask 
the Ranking Member if you did invite the EPA, if not----
    Ms. Johnson. Mr. Chairman, we had no opportunity. As you 
know, we are very limited as the Minority as to what we can do 
with witnesses. If we had been offered the opportunity, we 
would have taken it.
    Chairman Loudermilk. Well, the Ranking Member will be 
reminded that you can invite any witness to any hearing that 
you so deem necessary, and you have a right to do that.
    Ms. Johnson. But could you put that in the rules so that we 
can utilize that?
    Chairman Loudermilk. Well, I think it's been utilized in 
many of our hearings that we've had in the past.
    Ms. Johnson. Not the ones I've been involved in, and I've 
been involved 24 years.
    Chairman Loudermilk. And I am advised it is in the rules, 
and I do believe that you do have a witness here today that you 
invited to attend.
    Ms. Johnson. I'm not aware of that, but please, if we do, I 
wish EPA was represented since they're being attacked.
    Chairman Loudermilk. Let me introduce our witness, the 
Honorable Patrick McHenry. Our witness today on our first panel 
is the Honorable Patrick McHenry, Chief Deputy Majority Whip, 
and former Chairman of the House Financial Services Committee's 
Oversight and Investigations Subcommittee. Congressman McHenry 
represents the 10th District of North Carolina, a state which 
is definitely well known for its support of motorsports, and we 
really appreciate North Carolina being the headquarters of 
NASCAR, and for all they've done for the great American 
tradition of stock car racing.
    Congressman McHenry is the sponsor of H.R. 4715, the RPM 
Act, which I am cosponsoring, and his bill will be part of the 
discussion in this hearing. We thank him for being here this 
morning and look forward to hearing about his experiences with 
this issue.
    I now recognize Congressman McHenry for five minutes to 
present his testimony.

               TESTIMONY OF HON. PATRICK MCHENRY,

             MEMBER, U.S. HOUSE OF REPRESENTATIVES

    Mr. McHenry. Thank you, Mr. Loudermilk. I thank you, 
Chairman Loudermilk, thank you, Chairman Smith, Ranking Member 
Beyer, Ranking Member Johnson. Thank you for having me here 
today. It's an honor to speak before this great Committee. It's 
truly an honor personally to be back before the Committee, as 
the Full Committee Chairman said.
    I represent an area of North Carolina that has a rich 
history of supporting and participating in motorsports. From 
amateur weekend racers to NASCAR drivers, motorsports plays a 
vital role in western North Carolina's economy and recreational 
activities. Many communities in my district and across the 
country have racetracks that provide an outlet for motorsports 
enthusiasts, both competitors and fans alike.
    The EPA recently issued a proposed rule that makes it 
illegal to convert a vehicle if its emission system is modified 
and taken out of compliance from its stock configuration. The 
EPA made this rule with little input from the affected 
motorsports stakeholders, catching many of them by surprise. 
Mr. Chairman, this is no way for an agency to regulate, and 
certainly not in keeping with American tradition of 
jurisprudence.
    While the Clean Air Act does authorize the government to 
regulate the emissions of vehicles, Congress never intended for 
the EPA to regulate vehicles that are modified for use on 
racetracks.
    In 1990, Congress affirmed this exemption when it 
authorized the EPA to regulate non-road vehicles and explicitly 
excluded any ``vehicles used solely for competition'' from the 
non-road definition. While the law has not changed, what the 
regulations put forward by the EPA state are dramatically 
different with the keeping of the last 40 years of regulatory 
environment. That is in fact the case. That's why we're here 
today, is the plain text of the regulation goes counter to the 
Congressional intent of a Democrat House and a Democrat Senate 
Majority as well as a Republican President that signed that 
into law. This is bipartisan legislation, and we're defending 
the law against regulatory overreach. That's the nature of the 
reason why I'm here, to defend those enthusiasts that wish to 
continue to practice their competitive outlets.
    This new regulation will prohibit responsible, law-abiding 
people who wish to modify their cars for racing on closed 
tracks from doing so. The federal government has no place at a 
racetrack testing vehicle emissions as if it's a public road.
    The EPA's action will harm all involved, from owners and 
operators of tracks, to vendors who sell food and souvenirs, 
and of course families who spend Saturday evening at the local 
racetracks.
    Furthermore, this regulation targets businesses who 
manufacture the aftermarket exhaust systems that replace the 
stock systems. According to the Specialty Equipment Market 
Association, this industry employs over one million people 
nationally. These systems are essential--essential part of 
racing and the makers of them are often small businesses that 
cater to specific markets. I have many of them in my district, 
people like Jason from Gastonia in my district, a constituent 
who first brought this EPA overreach to my attention. For 
people like Jason, this is not simply a weekend hobby but 
rather what pays the bills for him and his family. We cannot 
stand idly by watching the EPA regulate hardworking Americans 
like Jason right out of business.
    In response to this misguided regulation, I have introduced 
H.R. 4715, the Recognizing and Protecting Motorsports, or the 
RPM Act. This bipartisan legislation reaffirms Congressional 
intent that vehicles used solely for competition are not 
subject to emissions standards under the Clean Air Act and that 
it would not be considered tampering to modify these vehicles 
for exclusive track use.
    If the EPA gets its way on this issue, it will do 
irreparable harm to motorsports and the businesses that power 
them. It is imperative we act now to stop the EPA's heavy-
handed approach and preserve this sport that serves as a hobby 
and living to millions of Americans.
    Mr. Chairman, thank you again for having me here today and 
inviting me to speak on this important issue. I applaud the 
Committee's work in addressing this issue and look forward to 
continuing to work with the Committee and the Committee staff 
to preserve our nation's rich motorsports heritage for future 
generations.
    And with that, I yield back.
    [The prepared statement of Mr. McHenry follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Loudermilk. Thank you, Mr. McHenry, for your 
testimony. We appreciate you also introducing the RPM Act, a 
very appropriate name.
    At this time we'll take a very brief recess while the clerk 
resets the witness table. And at this time while the table's 
being set up, I'd like to ask for unanimous consent to enter 
into the record a letter supporting H.R. 4715 from Sean 
Stewart, Executive Director of the United States Motorsports 
Association. This letter also contains statements of support 
from Robert Pattison, Executive Vice President of Lucas Oil, 
Torrey Galida, President of Richard Childress Racing 
Enterprises, and Steve Farmer, Vice President of Corporate 
Development at the University of Northwest Ohio. Without 
objection, so ordered.
    [Recess]
    [The information appears in Appendix I]
    Chairman Loudermilk. We'll call the hearing back to order 
at this moment, and again, I appreciate everyone in attendance, 
both our witnesses and the members of the Committee, and I 
would advise members of the Committee, if we can, we'll try to 
keep our puns as much at a minimum as we can, but with that, 
gentlemen, let the introductions begin.
    I'll introduce our witnesses of our second panel. First we 
have Mr. Christopher Kersting. He is the first witness of the 
second panel, and President and CEO of the Specialty Equipment 
Marketing Association. Mr. Kersting previously served as the 
Vice President of Legislative and Technical Affairs at SEMA. 
Mr. Kersting received his bachelor's degree in business from 
the University of Colorado and his law degree from Washington 
College of Law at American University.
    Our next witness today is Mr. Ralph Sheheen, Managing 
Partner and President of National Speed Sport News. Mr. Sheheen 
has been broadcasting motorsports for over 20 years and is one 
of the lead broadcasters of the NASCAR Camping World Truck 
Series. Mr. Sheheen has previously worked with a variety of 
major television networks including CBS, Fox, NBC and ESPN.
    Our final witness today is Mr. Brent Yacobucci, Section 
Research Manager of the Energy and Materials Section of the 
Congressional Research Service. Mr. Yacobucci previously served 
as the Acting Deputy Assistant Director of Resources, Science, 
and Industry for the Congressional Research Service. Mr. 
Yacobucci received his bachelor's degree in mechanical 
engineering from the Georgia Institute of Technology--he's a 
Ramblin' Wreck--and his master's degree in science, technology, 
and public policy from George Washington University.
    I now recognize Mr. Kersting for five minutes to present 
his testimony. Could you push your microphone switch there?

             TESTIMONY OF MR. CHRISTOPHER KERSTING,

                       PRESIDENT AND CEO,

           SPECIALTY EQUIPMENT MARKETING ASSOCIATION

    Mr. Kersting. There we go. Chairman Loudermilk, Ranking 
Member Beyer, Ranking Member Johnson, Full Committee Chairman 
Smith--when he comes back--and members of the Subcommittee. I 
appreciate the opportunity to speak with you today about the 
regulations recently proposed by the U.S. Environmental 
Protection Agency to prohibit the conversion of street vehicles 
into racecars.
    My name is Chris Kersting. I am President and CEO of the 
Specialty Equipment Market Association, otherwise known as 
SEMA. SEMA's a national trade association. It represents more 
than 6,800 mostly small businesses that manufacture, market, 
and sell a wide range of specialty automotive aftermarket 
products including racing equipment for motorsports 
competition.
    As noted, in July of 2015, the EPA issued a proposal 
regulation to make illegal the act of modifying and converting 
a street car, truck or motorcycle into a race vehicle. If 
finalized, this regulation would contradict 46 years of EPA 
policy and practice under the Clean Air Act as well as the 
intention of Congress when the relevant portions of the law 
were enacted in 1970. SEMA contends that the EPA's new 
interpretation of the law puts this long history and practice 
and the American motorsports tradition itself into jeopardy.
    Given this uncertainty and the importance of the matter to 
so many, we urge Congress to now establish a clear exemption in 
the law allowing street vehicles to continue being modified and 
converted for motorsports competition.
    By way of background, since the 1960s, SEMA has worked 
closely with the EPA and the California Air Resources Board, 
otherwise known as CARB, as regulations were developed for 
street vehicles and emissions-related aftermarket parts, and 
SEMA does not view the opportunity today as antagonistic. We 
appreciate the chance to shed some light on an important 
matter.
    Under the longstanding EPA and CARB regulations, it is 
already illegal to knowingly manufacture, market, sell, or 
install a part or component that negatively affects the 
emissions performance of a street vehicle. CARB worked with 
SEMA in the early years of the law to develop an emissions 
certification program that allows a specialty parts 
manufacturer to test and certify that a particular part does 
not negatively affect emissions. The federal EPA accepts CARB 
certification as demonstrating emissions compliance and allows 
certified parts sales in the states where EPA has jurisdiction.
    In the past several years, SEMA and CARB have ramped up 
collaborative efforts on industry compliance. Last October, 
SEMA completed construction on a new CARB-approved emissions 
testing facility where SEMA members get priority to demonstrate 
that their products comply with street-use emissions 
requirements under CARB's protocol. Further, for the past 
several years, SEMA has been working directly with EPA 
officials concerning equipment that would be illegal if used on 
road-going vehicles.
    Our industry has a long history of emissions compliance and 
cooperation with regulators, and we're working, and you can see 
we're investing substantially in ways to help our members 
achieve compliance more quickly and cost-effectively.
    The Clean Air Act does not extend authority to EPA to 
regulate competition vehicles. Congress first addressed the 
issue in 1965 when it set the definition for how far that 
authority extends. It's defined as motor vehicles. Motor 
vehicles are self-propelled vehicles designed for transporting 
persons or property on a street or highway.
    While the Clean Air Amendments of 1970--or with the Clean 
Air Act Amendments of 1970, the on-record deliberations of the 
Conference Committee made clear that Congress did not intend 
the term ``motor vehicle'' to extend to vehicles manufactured 
or modified for racing. The question was actually put and 
answered.
    Next, in 1990, Congress provided the EPA with the authority 
to regulate non-road vehicles and engines. Since the term 
``non-road vehicle'' could have been misunderstood as including 
racing vehicles, Congress actually included language to make 
clear that the law excludes vehicles used solely for 
competition.
    And it isn't only Congress that has consistently excluded 
vehicles modified for use in competition. EPA itself has a 
history of policies and practices that up until the recently 
proposed regulations have recognized the exclusion. For 
example, the EPA's regulations pertaining to non-road vehicles 
specifically allows emissions-certified recreational 
motorcycles as well as snowmobiles and boats to be decertified 
and converted for competition use, the very issue we're talking 
about with regard to street vehicles.
    EPA also has specific policies for those wishing to import 
into the United States cars and trucks that have been altered 
for competition use. EPA's own import documentation forms 
specifically ask the importer to supply the vehicle's year, 
make, model, and VIN number. These are street vehicles we're 
talking about here. The EPA has historically recognized that 
altered competition vehicles are not required to meet emissions 
requirements and has allowed the import of these noncompliant 
racecars.
    It is against this background that EPA recently revealed 
its entirely novel interpretation that the Clean Air Act has 
always provided EPA the authority to prohibit the conversion of 
emissions-certified street vehicles for use in motorsports. 
That is why SEMA strongly supports H.R. 4715, the RPM Act of 
2016.
    This amendment to the Clean Air Act would eliminate any 
uncertainty now and in the future and make clear that the law 
allows emissions-certified street vehicles to be modified and 
converted for competition use.
    In a few moments, this Subcommittee is going to hear from 
Mr. Ralph Sheheen. He's going to describe the impact the EPA's 
proposed regs would have on American motorsports and the 
communities supported by racing. Many states see motorsports-
related industries as a driving force for their economies. It 
would be a shocking reversal to suddenly place most of the U.S. 
motorsports tradition outside of the law, and at risk of 
elimination.
    As for impacts on the automotive side, EPA's proposed 
regulations would cause a devastating outcome since most of the 
non-professional racing activity in the United States relies on 
production vehicles that have been modified for use at the 
track, and because of the federal emissions standards went into 
effect beginning in 1968, the EPA's proposal would render 
illegal converted racing vehicles and future racing-parts sales 
for model years 1968 and forward.
    So what does that really mean? The proposed regs would 
eliminate the manufacturing, distribution, retail sales, and 
installation businesses that supply the products and services 
required in motorsports. Retail sales of just the racing parts 
alone make up a $1.4 billion annual market, and that's to speak 
nothing of related ancillary sales for other equipment. Tens of 
thousands of jobs would be lost. The carmakers would also 
experience a significant negative impact as their racing-
related divisions would evaporate including racing-related 
product engineering and development, and vast sales and 
marketing programs.
    Clearly, in the wake of EPA's newly revealed interpretation 
of the Clean Air Act, the public and regulated industry deserve 
certainty concerning such an important provision of the law. 
SEMA supports passage of H.R. 4715 to confirm the directives 
and the intent of Congress.
    I want to add that I agree with Congressman Beyer's point 
that we don't want to have laws on the books which we have no 
intention of enforcing, and yet that is what EPA has indicated 
in recent statements. It really makes very little sense. And I 
don't expect that folks who have invested both in racecars and 
in the businesses that support racing want to live under the 
cloud of a line being drawn around this activity that deems it 
illegal.
    Thank you all again for this opportunity to speak on behalf 
of SEMA and this matter of critical importance. I would be 
glad, of course, to answer any questions that you might have.
    [The prepared statement of Mr. Kersting follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    Chairman Loudermilk. Thank you, Mr. Kersting.
    And I now recognize Mr. Sheheen for five minutes to present 
his testimony. You have the green flag, sir.

                TESTIMONY OF MR. RALPH SHEHEEN,

                MANAGING PARTNER AND PRESIDENT,

                   NATIONAL SPEED SPORT NEWS

    Mr. Sheheen. Thank you, Chairman Loudermilk, Ranking Member 
Beyer, and Members of the Subcommittee. Thank you for inviting 
me to speak about the U.S. Environmental Protection Agency's 
recent proposal to prohibit the modification of street vehicles 
into race-use-only vehicles.
    Over the past 31 years, I have built a career around the 
exciting sport of auto racing. I am currently one of the owners 
and President of National Speed Sport News, a publication that 
dates back to 1934. I have also spent much of my career as a 
motor sports broadcaster for a variety of networks including 
Fox, CBS, NBC, and ESPN, and countless radio networks. On any 
given weekend, you can find me calling the action live on TV 
from racetracks across the country. I'm in a unique position to 
speak to the impact this regulatory proposal would have on the 
motorsports community.
    For me, it began at the age of five. My parents took me to 
my first race at the old fairgrounds mile in Sacramento, 
California. Legendary racers such as Mario Andretti, A.J. Foyt, 
and the Unser Brothers were competing that day. I can still 
remember vividly to this day my father walking me across the 
track at the end of the race and my shoes sticking to the dirt 
they had just raced on. Seeing the cars and the drivers up 
close, hearing the roar of the engines, and experiencing the 
unique smells are indelible memories. The blazing speeds and 
the incredible feats of bravery as these men risked it all for 
the glory that came with the checkered flag hooked me for life. 
These experiences aren't unique to me. They have been shared by 
millions of race fans young and old across our country for 
generations.
    I chose to make motorsports my career. For 28 years I have 
been a nationally recognized sportscaster, broadcasting some of 
the biggest motorsports events in the world including the 
Indianapolis 500, the Daytona 500, and the Monaco Grand Prix. 
I've also dedicated a large part of my career to saving one of 
our sports' true treasures: National Speed Sports News, which 
is America's oldest and most trusted name in motorsports 
journalism. Due to the passion I have for this sport and its 
history, Speed Sport is now a full-fledged and thriving media 
company. We cover motorsports from the very top levels all the 
way down to your local dirt track.
    Most racers begin their careers competing in a division 
that utilizes a modified production vehicle. That's because it 
is the cheapest and most cost-effective form of racing. The EPA 
regulation to prohibit any production vehicle from ever being 
converted or modified for racing use would be devastating to 
many types of racing, particularly racing at the amateur levels 
where the racers are not in a position to purchase the purpose-
built racecars used in many professional series. There are over 
1,300 racetracks in this country, and the vast majority are not 
dedicated to running high-cost racecars like the well-known top 
divisions of NASCAR, IndyCar, and the NHRA.
    Many of the famous drivers who compete in these very 
popular series started their very careers in converted street 
cars that they trailered to their local track every weekend. 
For many years, the great American race, the Daytona 500, as 
well as the greatest spectacle in racing, the Indy 500, 
utilized modified vehicles as well, production vehicles that 
were modified. These world-renowned events that are such an 
integral part of America's sporting landscape would've been 
outlawed by this EPA regulation.
    The racers who would be hit hardest by this proposal are 
the individuals who are just starting out in the sport, and the 
communities that support them. Companies supplying the parts 
used in these amateur series and the shops that perform the 
modifications would also suffer.
    These vehicles are frequently converted into track-use-only 
cars and are rebuilt many times throughout their years spent in 
competition. To remove the ability to create, rebuild, improve, 
or service these vehicles is to take away the ability of most 
enthusiasts to engage in much of the racing that presently 
takes place in the United States.
    On Friday and Saturday nights at tracks across the country, 
you will encounter amateur racers and the communities that come 
out to support them. The impact of this regulation goes beyond 
the individual racers in the pits and their ability to build 
and service their cars as entire communities would suffer. 
Families, men, women and children come out to the local 
racetrack on the weekend to cheer on and support their friends, 
neighbors and family members. Fathers, sons, mothers and 
daughters spent countless hours working together to get the 
family racecar ready for the next weekend's event. Racing is a 
lifestyle, and in many towns across the country, it is the 
highlight of the weekend.
    Beyond this practical impact on daily lives, racing 
provides a significant boost to the economies of communities 
with motorsports businesses and racetracks.
    In Chairman Loudermilk's home State of Georgia, the owners 
of a successful high-performance parts business are enhancing 
the economy of southeast Georgia by creating the Georgia 
International Raceway Park, which is expected to bring in 
around $75 million annually and more than 200 full-time and 
part-time jobs within a five-year span.
    In Florida, the home state of Representatives Posey and 
Grayson, the Daytona International Speedway and the Homestead 
Miami Speedway generate an annual economic impact of over $2.1 
billion and over 35,000 permanent jobs.
    And in my home State of North Carolina, approximately 
27,252 residents in 2005 were employed in motorsports-related 
jobs including employees working for suppliers of the equipment 
used in racing. This is a $6.2 billion-a-year-old industry in 
North Carolina. That number has almost certainly gone up in the 
ten-plus years since a full-scale economic impact study was 
completed by economists at UNC Charlotte.
    Until this recent EPA proposal, no government entity has 
questioned the legality of using modified production vehicles 
exclusively for racing, and an enormous industry has been 
created as a result. It seems absurd that a federal agency 
could outlaw thousands of racecars and the businesses that 
supply products for these cars without legislative authority or 
justification.
    On behalf of racing enthusiasts across the country and the 
industries that serve them, I ask for your support for H.R. 
4715, the Recognizing the Protection of Motorsports Act of 
2016, to make clear that converting street vehicles to racecars 
used exclusively in competition does not violate the Clean Air 
Act.
    Thank you again for this opportunity to testify. I'm happy 
to answer any questions you may have.
    [The prepared statement of Mr. Sheheen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Chairman Loudermilk. Thank you, Mr. Sheheen.
    I now recognize Mr. Yacobucci for five minutes to present 
his testimony.

               TESTIMONY OF MR. BRENT YACOBUCCI,

                   SECTION RESEARCH MANAGER,

                  ENERGY AND MINERALS SECTION,

                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Yacobucci. Good morning, Chairman Loudermilk, Ranking 
Member Beyer, and Members of the Subcommittee. I am Brent 
Yacobucci, the Energy and Minerals Section Research Manager for 
the Congressional Research Service. I was asked to provide 
background and to discuss CRS's research on tampering 
provisions and exemptions within the Clean Air Act and to 
discuss policy options to exempt racing vehicles.
    Congressional guidelines require that I confine my 
testimony to technical aspects of matters under consideration 
and that I limit myself to questions within my field of expert. 
I can discuss policy options and ramifications but CRS does not 
take a position on pending or proposed legislation.
    In July 2015, EPA proposed new emissions standards for 
medium- and heavy-duty vehicles and engines. Within the 
proposal are provisions that EPA maintains clarify longstanding 
policy but which part suppliers argue is new policy restricting 
owners from converting road vehicles for racing and suppliers 
from selling retrofit kits and other parts to those owners.
    The original public-comment period ended in September. In 
response to comments from SEMA and for unrelated reasons, EPA 
reopened the docket for comments from March 2nd through April 
1st.
    The key policy question is whether a vehicle operated 
solely for racing is a motor vehicle as defined by the Clean 
Air Act and thus subject to tampering and defeat device 
provisions of the Act. To sell a new motor vehicle, the 
automaker must supply a certificate of compliance with federal 
standards. Under the Act, it is unlawful to remove, bypass, 
defeat or render inoperative any part of a motor vehicle's 
emissions system.
    In 1990, Congress granted EPA new authority to regulate 
non-road vehicles and explicitly excluded those used solely for 
competition. However, there's no similar provision in the Act 
explicitly exempting a racing vehicle from the definition of 
motor vehicle after it has been certified as such. This is 
arguably a difference in interpretation between EPA and SEMA. 
EPA maintains that conversion of motor vehicles to racing 
vehicles is part of a larger prohibition on reclassifying motor 
vehicles for any purpose. SEMA, on the other hand, maintains 
that EPA and the Act's silence on the topic before 2015 mean 
that such conversions are allowed.
    Under the 1990 Amendments, EPA established emissions 
standards for non-road vehicles and provided specific guidance 
for converting new non-road vehicles including motorcycles or 
dirt bikes from recreational use to competition. The owner must 
destroy the original emissions label attached to the bike and 
the owner may not then use the bike for recreation. This 
process is, to our understanding, based on owners' self-
compliance, and the EPA does not maintain a list of such 
conversions.
    EPA and other agencies also temporarily exempt importing 
racing cars through a detailed reporting process. Exemptions 
are granted by case, and importers must supply EPA among other 
things the vehicle identification, or VIN number, a list of 
race-specific characteristics, and a list of characteristics 
that preclude the vehicle's safe use on roads. In its guidance, 
EPA states that not all vehicles used in races are excluded 
from emissions compliance. Determinations are based on the 
capability of the vehicle, not its intended use.
    This distinction between a vehicle's capabilities and its 
use is central to EPA's position. Going back as far as 1974, 
EPA has maintained that it would make determinations on 
exclusions from the motor vehicle definition based on vehicle 
design, not intended use. Since that time, EPA has employed 
that test for a variety of uses including off-road vehicles, 
kit cars, and imported racecars.
    CRS was unable to find a document from EPA before 2015 that 
explicitly stated that motor vehicles converted to racing were 
not eligible for exemption. However, nor could CRS identify 
provisions in the Act or regulations which would explicitly 
allow for a certified motor vehicle to be reclassified.
    In enforcing the tampering provisions, EPA has historically 
not taken action against individual owners. In all enforcement 
actions CRS could identify, automakers, parts suppliers, and 
repair shops were the defendants. CRS could find no instances 
of EPA targeting owners modifying vehicles for road or track 
use. Further, CRS could identify no cases where EPA took action 
against parts suppliers who operated solely in the racing 
market.
    Actions against parts suppliers have often alleged the sale 
of defeat devices to road vehicle users despite claims by the 
supplier that the parts were for off-road or racing use only. A 
key issue is that for motor vehicles modified for racing, in 
some cases, there may be no way to produce parts that could 
also not also be used on motor vehicles.
    Responding to concerns raised by SEMA and others, an EPA 
spokesperson stated publicly that the agency remains primarily 
concerned with ``aftermarket manufacturers who sell defeat 
emission control systems on vehicles used on public roads.'' 
This statement may not be sufficient to address concerns of 
racing-parts suppliers as EPA maintains that their actions may 
still be illegal even if EPA chooses not to focus enforcement 
action on them.
    At least two bills, H.R. 4715 and S. 2659, have been 
introduced to address EPA's regulation of motor--of racing 
vehicles. The bill would amend the Clean Air Act definition of 
motor vehicle to include competition--to exclude competition-
only vehicles and would explicitly exempt such vehicles from 
the tampering provisions. Policy questions related to these 
bills include how would EPA implement the new provisions, how 
the definition change would interact with other federal and 
state laws, and whether there would be a process for 
recertifying racing vehicles for later on-road use.
    I thank the Subcommittee for its time, and I am happy to 
answer any questions.
    [The prepared statement of Mr. Yacobucci follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Chairman Loudermilk. All. I thank all the witnesses for 
their testimony, and the Chair recognizes himself for five 
minutes for questions.
    Mr. Sheheen, you had mentioned the economic impact that 
auto racing has in the United States. Could you repeat what 
that number is?
    Mr. Sheheen. In North Carolina alone, it's a $6.2 billion-
a-year industry, which is a significant number.
    Chairman Loudermilk. $6.2 billion just in North Carolina?
    Mr. Sheheen. Yes, sir, $6.2 billion-a-year industry. I live 
in Mooresville, North Carolina, which is called Race City, USA. 
The majority of the industry in and around our area right there 
is all racing related whether it's NASCAR Sprint Cup teams all 
the way down to teams competing in Supercross. There's sports 
car racers, IndyCar racers, drag racers. They're all there. 
It's not just those people but the cottage industries that have 
sprung up around that, people that supply not just the pieces 
and parts and components that make the cars not only go faster 
but more efficiently and quicker and safer but also the people 
that work in public relations industries, media like Speed 
Sport. You have marketing firms that just deal specifically 
with motorsports.
    There is even a gentleman in Concord, North Carolina, a 
neighboring city, by the name of Sam Bass who started his 
career with a passion for motorsports as a young kid who just 
liked to draw racecars. He has turned that into a thriving 
business that not only paints pictures of cars but designs 
paint schemes and the uniforms that the crews and the drivers 
wear, and he has a thriving business out of that.
    So there's a huge cottage industry that makes up that 
massive $6.2 billion.
    Chairman Loudermilk. And as a race fan, I know that NASCAR 
is the icon of our motorsports here in the United States, and 
it's a significant part of Americana from catch phrases such as 
``boogedy boogedy boogedy'' to the checkered flag to the 
ancillary businesses such as clothing and souvenirs. A race is 
a cultural experience, and as you look at those that have 
become our best-known drivers, those that you hear about all 
the time from your testimony understand, these guys just did 
not walk in one day and become a NASCAR driver. They worked 
themselves up through the ranks.
    Mr. Sheheen. That is exactly correct.
    Chairman Loudermilk. And those ranks are the industry that 
would be directly impacted by this EPA rule. Am I correct?
    Mr. Sheheen. That's correct, and for example, let's take 
the Pettys, the first family of American motorsports, if you 
will, beginning with Lee Petty through King Richard Petty, his 
son Kyle Petty, and then on to Adam Petty, his son. Of those 
four generations, three of them all utilized production 
vehicles that were modified for racing that allowed them to 
have the opportunity to grow.
    Another gentleman out in Roseville, California, Bill 
McAnally, if you want to take it down a step or two just to 
show how it impacts all the way across the board, Bill began 
racing in 1986 at the age of 21 years old in a street stock 
division in a 1970 Chevelle that was modified from production 
to street to racetrack use only. Bill is now 50 years old, owns 
Bill McAnally Racing, and has two teams competing in NASCAR's 
K&N West Division and two teams competing in NASCAR's K&N East 
Division. He employs 43 people. He has won multiple 
championships. He's one of the leaders in NASCAR's competition 
on the regional level, and he has started careers for numerous 
individuals that have moved on into NASCAR's top divisions, 
whether it's his crew chiefs, crew members or drivers. So 
there's another career that never would've happened if this 
regulation had been passed.
    Chairman Loudermilk. And thank you.
    And Mr. Kersting, I have a question.
    Mr. Kersting. Chairman Loudermilk, I just wanted to point 
out that in addition to that ladder effect for professional 
racing, there is a vast amount of sportsman racing going on out 
there in the country. Every day, every year we've got a ton of 
people out there enjoying the sportsman categories, and those 
guys and women are generally driving converted vehicles.
    Chairman Loudermilk. And I've had the opportunity at 
Atlanta Motor Speedway to go in the drivers' meeting and do 
their devotion before the race and meet with the drivers, and 
they're impressive.
    But Mr. Kersting, I'd like to ask you a question. How did 
your organization, the Specialty Equipment Market Association, 
learn about the EPA's proposed decision to enforce the Clean 
Air Act on non-road vehicles for competition?
    Mr. Kersting. Well, as you would expect, SEMA as an 
organization representing manufacturers and distributors in 
this category, we maintain offices here in Washington, D.C., to 
monitor for proposed regulations, proposed legislation, and I'd 
point out that most of the race sanctioning bodies have the 
same. The vehicle manufacturers are represented here in a 
similar fashion. And ordinarily, the Federal Register, which is 
the document that alerts us to new proposed regulations, is 
very plain in representing what the new regulations pertain to, 
and that is the public notice portion of our regulatory 
process, and in this case, not only did SEMA not find that 
regulation when it was initially proposed, not a single 
stakeholder that we're aware of identified that regulation, and 
the reason was that it was tucked into a proposed regulation on 
medium- and heavy-duty greenhouse gas emissions, and it didn't 
bear a heading in terms of its chapter in the table of contents 
that would indicate that racecars are being regulated. 
Basically it was under a section for other provisions.
    So there's really no easy way to find it. Our staff found 
it in December. This rule was introduced in July through kind 
of an indirect reason, and thankfully we found it.
    So it is unusual that a regulation that would have such 
far-reaching effect would be tucked away like that, and you 
know, I mentioned that SEMA has a good working relationship 
with regulatory officials at the EPA, at the California Air 
Resources Board. We work with them regularly. And so it was 
quite a surprise to us that this approach to solving the 
problem that EPA perceives was the approach used and that we 
weren't informed about it at all.
    Chairman Loudermilk. And when you found it, I understand it 
was after the comment period had closed?
    Mr. Kersting. That's correct. So that regulation had an 
official comment period. Fortunately, the agency has latitude 
to continue to accept comments, and I think under the 
circumstances, they accepted our comment, and it is a part of 
the docket.
    Chairman Loudermilk. So the EPA has re-offered the 
provision that we're discussing here today for public comment. 
Did the agency include any justification or analysis when it 
reopened this issue for comment?
    Mr. Kersting. Not that I'm aware of.
    Chairman Loudermilk. In your testimony, you discussed the 
impact on ancillary sales as a result of the EPA's rule. Would 
you please describe the impact in a little more detail?
    Mr. Kersting. So as an organization, SEMA represents 
manufacturers who have sales in the range of about $32 billion 
a year. For us to isolate just racing sales was something that 
we were able to do in preparation for the hearing here, but for 
us to be able to really look at the related sales, we would 
need a little bit more time, and we'd be happy to provide this 
Subcommittee further information as we have the opportunity to 
collect it.
    But what we're talking about here is that if Ralph takes 
his race vehicle to the track on Saturday, he's going to be 
towing that vehicle with a truck. There's going to be a 
trailer. There's going to be a whole range of equipment that is 
sold in connection with that truck and trailer, all sales that 
make up part of that $32 billion industry that we represent, 
not to mention all the ancillary support services, the folks 
who are there to take care of that vehicle, to work on it, 
provide services for it and so forth. So----
    Chairman Loudermilk. Hoosier Tires.
    Mr. Kersting. Yes, well, and really you're talking about a 
lot of local race prep shops that get a lot of business through 
these sportsman category activities, and we just didn't have 
the time to pull that kind of information together but it's in 
the billions and substantial.
    Chairman Loudermilk. My time has exceeded its limit.
    At this point I'll recognize the Ranking Member, my good 
friend, Mr. Beyer, from Virginia.
    Mr. Beyer. Thank you, Mr. Chairman.
    I want to thank all of you for coming on March 15th. You 
know, you should beware the Ides of March. Maybe he's the one 
that needs to be worried about that.
    It was interesting to hear that this is just the first 
hearing, and if this ends up being the committee of markup for 
Mr. McHenry's bill, it would be excellent, Mr. Chairman, to get 
the EPA to come to actually hear their thoughts on the 
consequences of H.R. 4715, especially with respect to 
enforcement against manufacturers for the Fast and Furious, not 
the racecar drivers.
    Mr. Yacobucci, let me simplify and clarify since we don't 
have the EPA here. Number one, that the EPA has always thought 
that it violated the Clean Air Act to modify emissions on a 
certified car, and that the recent clarification was not a 
matter of sneaking something in. In fact, it may be one of the 
reasons why they reopened it is that they thought it was a 
clarification of what they thought all along. Number two, that 
it was never the intent of Congress to prohibit racecars from 
being modified. Number three, that this probably is why the EPA 
has never enforced this against racecars or racecar drivers.
    Mr. Yacobucci. To the first point, that is our 
understanding, that that is EPA's position. On the second 
point, I'm not going to weigh in on the intent of Congress. 
Certainly we could do a legislative history for you and get 
hearing documents and those sorts of things, but I won't 
actually speak to Congress's intent on language they did or 
didn't include in the act.
    Mr. Beyer. I would love your CRS perspective on why we have 
laws and regulations on the books that we don't enforce. Let me 
give you a Virginia example.
    One of my friends, a state senator, tried to repeal a 
Virginia statute that makes it illegal to have sex outside of 
marriage. It's a $250 penalty and no jail time. And when he 
went to repeal it, since it's clearly not an enforced law, it 
turned out that the Commonwealth attorneys wanted to use it in 
cases when they plead down something from a more serious case, 
they needed something to charge them with so that they withheld 
it.
    Is there--from a CRS perspective, is there any reason to 
keep a law on the books or regulation on the books that has not 
been enforced and no intention to enforce it?
    Mr. Yacobucci. We won't take a position on that, sir. We 
would take no position on legislation.
    Mr. Beyer. Well, then I'll ask Mr. Kersting that.
    Mr. Kersting. Congressman Beyer, if I may, I can provide a 
very relevant portion of the legislative history real quickly. 
This was discussion during the Conference Committee hearings on 
the Clean Air Act Amendments in 1970, which actually put into 
place the relevant portion of the law that EPA is turning to 
today. Representative Nichols posed the following question to 
Chairman Staggers as follows: ``I would ask the distinguished 
Chairman if I am correct in stating that the terms vehicle and 
vehicle engine as used in the Act do not include vehicles or 
vehicle engines manufactured or modified or utilized in 
organized motorsports racing events, which of course are held 
very infrequently but which utilize all types of vehicles and 
vehicle engines.'' Mr. Staggers in response: ``In response to 
the gentleman from Alabama, I would say to the gentleman they 
would not come under the provisions of this Act because the Act 
deals only with automobiles used on our roads in everyday use. 
The Act would not cover the types of racing vehicles to which 
the gentleman referred, and present law does not cover them 
either.''
    Mr. Beyer. Mr. Kersting, let me move on because that was 
part of the written testimony that you had, which is good.
    I understand that SEMA often works with EPA to target 
aftermarket parts manufacturers who intentionally seek to 
violate environmental laws. In H.R. 4715, Mr. McHenry's bill, 
is there a concern, a reasonable concern, that enforcement 
against those few bad actors in the aftermarket parts industry 
will be more difficult? Is there any concern that legislation 
that simply says any cars competition only or racing-only 
vehicle gives these people carte blanche to go after the street 
folks?
    Mr. Kersting. I think the problem is that the proposed 
remedy here is overkill. SEMA is willing to work with the 
regulators to address the problem of illegal parts for street 
use, but to draw a circle in express terms that renders illegal 
all of the race vehicles and all of the racing activity that is 
part of the motorsports tradition in this country is 
unnecessary in order to address what is otherwise a very small 
portion of the overall emissions that are emitted by vehicles 
on the roads in this country.
    Mr. Beyer. So let me clarify. You'd rather do this through 
rule and regulation with the EPA rather than legislation?
    Mr. Kersting. I don't even think it requires rule and 
regulation. I think that in fact EPA has a history of 
recognizing that Congressional intent we were just talking 
about, and we would work out policies that would address how 
they would handle the matter of illegal parts.
    Now, the law already exists that gives the EPA enforcement 
authority for any illegal parts or modifications that show up 
for street use, and that's really where we need to focus the 
discussion.
    Mr. Beyer. There's been some discussion about whether it 
makes sense to do an exemption or create a different 
classification for certified cars that become racecars. Do you 
have an opinion on which is more workable?
    Mr. Kersting. Well, because I think that the Congress was 
clear when we originally designed the structure of the law that 
these vehicles weren't considered, I mean, it's pretty simple. 
Motor vehicle, you have authority. It is a vehicle that's on 
the roads. If a vehicle is decommissioned, taken out of that 
use, that's where the authority resides, right? Now we're on a 
racetrack. That vehicle is no longer subject to the regulatory 
authority of the EPA. I think that's the right outcome, and I 
would rather focus the energies and efforts on the law as it 
exists than trying to outlaw an entire category of activity 
that heretofore has been treated as legal. Look at entire 
institutions that have grown up over that time converting 
street vehicles for racing.
    Mr. LaHood. [Presiding] The Chair now recognizes Mr. Posey.
    Mr. Posey. Thank you very much, Mr. Chairman, and I thank 
the Chairman for calling this hearing, and I'm very grateful to 
the witnesses for their attendance here.
    There's been two references to the fact that there's not a 
representative from EPA here, and I just would like to remind 
everyone that the other side of the aisle had an opportunity to 
bring in whatever witnesses they desired to. They chose to 
bring in somebody from CRS. Maybe that's because the last 
couple times we had the Director, the Secretary of EPA here, 
every time I asked her a question she said I don't know, I'm 
not a scientist, but everything's based on science. Maybe 
that's why they chose not to have somebody from EPA here. At 
least we can get some answers from CRS.
    And so Mr. Yacobucci, the rule in question here that was 
attempted to be implemented by EPA, just a yes or no, certified 
motor vehicles and motor vehicle engines and their emission 
control devices must remain in their certified configuration 
even if they are used solely for competition or if they become 
non-road vehicles or engines. Is that correct?
    Mr. Yacobucci. That is my--I'd have to look at the text but 
I'm pretty sure that is the text, yes.
    Mr. Posey. Do you have any idea why EPA would have been so 
sneaky trying to implement this if it was so unimportant?
    Mr. Yacobucci. I won't comment on EPA's intent on this. 
From everything I have read in terms of their argument or the 
rationale is that again that this is just a continuation of a 
longstanding policy. The definition of motor vehicle in the Act 
refers to the design of the vehicle, not its intended use. If 
you want, I could pull the text of the definition.
    Mr. Posey. I have the definition here.
    Mr. Yacobucci. But so EPA's argument is that it can police 
design, not the intent of the owner after the vehicle is 
designed and manufactured. SEMA and others obviously disagree 
with that interpretation but EPA argues that it's consistent 
with----
    Mr. Posey. But then again, that's no reason to try and 
sneak something through without advertising it, without 
disclosing it anywhere, I just think it's despicable the way 
the agency tried to push this through without anybody knowing 
about it secretly, clandestinely.
    Mr. Kersting, you mentioned in your testimony that you 
believe the EPA violated the Administrative Procedures Act 
obviously, and so do I. Why do you think they tried to do it?
    Mr. Kersting. You know, I am really not certain. I think we 
were surprised and disappointed because we do work hard to 
collaborate and come up with the best approaches for regulating 
our industry. The matter of the California Air Resources Board 
certification program is a very extensive, detailed program to 
give parts manufacturers the opportunity to test and 
demonstrate parts as legal for street use, and those parts then 
carry designation as certified parts from there forward. That 
takes a lot of work and effort, and EPA knows that we're 
working hard to educate our industry. We get new companies 
coming in to the industry all the time, and we are trying to 
help them as they move toward getting their parts in 
compliance.
    So I'm disappointed about it. I can't imagine really what 
the intentions were.
    Mr. Posey. Well, that's what shocked me. I know the record 
that SEMA has for working with the agencies, trying to make 
things a win-win situation so that we don't have losers on 
either side, that we do it fairly, and I was stunned by it.
    Mr. Sheheen, do you see any unfairly discriminating issues 
with the way they have written this rule as to one group of 
people or another group of people, one level or another level?
    Mr. Sheheen. Well, actually, I believe it could impact 
quite a few levels obviously from the amateur level that we're 
talking about where drivers who are not able to afford full-
blown million-dollar, hundreds of thousands of dollars' worth 
of racecar parts. They just can't do that, go compete in 
NASCAR's top division or IndyCar racing. It would certainly 
wipe them out.
    But at the same point, there's a lot of manufacturers that 
would see a lot of problems with this. For example, Cadillac 
competes in the Pirelli World Challenge Series, which utilizes 
basically this very form of racecar production vehicle. They 
pull a racecar, what they intend to be a production car, 
straight off the production line randomly and turn it into a 
racecar but basically using that production vehicle. This is 
something that many manufacturers such as General Motors and 
Ford and many others use to not just find out what their cars 
are capable of doing, how to make them work better, perform 
better, more efficiently, safer, but also they take engineers 
and put them with these teams and immerse them in these 
programs so that they learn. So that is knowledge that then 
gets transferred to what you and I drive on the street. So yes, 
we would be wiping out a complete amateur level all across the 
country but also the major automotive manufacturers in this 
country would take a huge hit from this as well.
    Mr. Posey. Thank you. My time is expired. I yield back.
    Mr. LaHood. Thank you, Mr. Posey.
    The Chair now recognizes myself for five minutes for 
questions.
    I want to thank the witnesses for being here today and for 
your testimony. I appreciate it.
    The district I represent in central and west central 
Illinois is a very rural district. I have five racetracks in my 
district. I have lots of tractor-pull competitions throughout 
my district, and I've been amazed at the industry that's really 
been created by my racetracks and whether those are garages or 
mechanic facilities, small- and medium-sized businesses 
throughout my district, and if you come to my district in the 
summertime, you know, the opportunities that have been created 
by the racing industry is really amazing. These tracks in my 
district almost on every weekend are full of families and young 
people, people that go there for enjoyment and watching, you 
know, the activities that go on there.
    And I guess what puzzles me in sitting here in the hearing 
today is, we as policymakers look at implementing a rule or 
passing a law to solve a problem that's out there, something 
that needs to be fixed, a void that's there, and when you think 
about the 46 years of precedent that was mentioned earlier and 
why this is being done now, I mean, it's what makes people 
cynical about government in some ways, distrustful that an 
agency like this can come in and implement something like this, 
and I'm trying to see, you know, where are the complaints out 
there, where are the issues that we need to fix, and I don't 
see it in my district whether that's, you know, newspaper 
articles being written or protesters at events or police 
reports being filed, anything that kind of anecdotally or 
otherwise would tell us there's a problem that needs to be 
fixed here, and I would guess in your industry in North 
Carolina or anywhere else in the country. Have you seen that 
anywhere, you know, people complaining we need to fix this? Mr. 
Kersting, I would ask you that first.
    Mr. Kersting. So I think this is kind of Inside Baseball 
with the regulators. This is something that in their area of 
concern they pay some attention to but I think it's important 
to recognize what we're really talking about here. Even in the 
instance where the EPA is concerned about a part finding its 
way onto a street vehicle, we're talking about the incremental 
emissions difference between whatever is the certified 
equipment and whatever is the racing part, and we're looking at 
the emissions that are generated there in the scheme of vehicle 
miles traveled annually by a car park of 200 million vehicles. 
So how much is this is really going on by way of a percentage 
of overall automotive emissions? It's a very small fraction. 
And in that regard, I believe that EPA should work with the 
industry to come up with better approaches to regulate at the 
level they're really aiming at, that is to say illegal parts 
going on street vehicles. To do that by drawing a line around 
racing and calling any conversion of street vehicles any 
alteration from the certified configuration illegal is 
ridiculous overkill, and really kind of unrelated.
    Mr. LaHood. Mr. Sheheen, do you have a comment on that?
    Mr. Sheheen. You know, I would tell you that the thing that 
most people might complain about at the racetrack is that their 
guy didn't win. They're just hoping it was the other guy. You 
know, you're talking about an industry here where if we take 
this away, the opportunity for the amateurs to go compete on a 
Friday night or a Saturday night, as you mentioned in your 
district there, you're taking away their passion. These are 
people that don't own a boat to go out on Lake Michigan. They 
don't have tickets for the season with the Bears or the Cubs. 
This is what they do. Their whole family comes together and 
works and gets the car ready. They put everything they have 
into that. This is their lifestyle. This is their hobby. Most 
importantly, this is their passion, and we're talking about 
potentially taking that away from them.
    And if you look at it from a grander scale, Henry Ford over 
100 years ago drove the Sweepstakes, which was a modified 
production vehicle, to a victory that kicked off what is now 
the Ford Motor Company, and a massive industry has come out of 
that, and still to this day that massive industry utilizes 
modified production vehicles so they can learn so that we can 
continue.
    Mr. LaHood. Thank you.
    Mr. Kersting, a particular question. The EPA claims that by 
proposing this rule, they're trying to stop the sale and use of 
illegal emissions defeat devices. Would this rule in any way 
assist the agency in this goal?
    Mr. Kersting. So a defeat device by definition is a part or 
a modification that will be done to a vehicle on the roadways. 
There are laws in place, and the EPA and the California Air 
Resources Board have used them for many, many years to regulate 
the industry. They've even cited instances in some of their 
recent releases about their enforcement. That's the approach 
they should be using to address the problem: find egregious 
cases and go after those egregious cases. To outlaw 
motorsports, to outlaw the conversion of vehicles for racing 
doesn't seem to really be a direct hit.
    Mr. LaHood. Well, and to your point, I mean, it seems like 
EPA has the adequate enforcement mechanism to do this. They 
haven't done that, and it seems as a former prosecutor, if you 
have appropriate enforcement out there and you send a deterrent 
message, you highlight a number of cases that are, you know, 
you know, cases that can be exposed at a higher level, enforce 
those and send a message in the industry, we're not going to 
tolerate that.
    Mr. Kersting. Right. The law is there. It is--and it's not 
as if the EPA doesn't enforce at all. So I think if they are 
really interested to work on this, we'd be interested to work 
with them, and actually have been working with them. We have 
been having discussions, active discussions, with the EPA for 
the last four years, and so I don't know. This is--as I say, 
it's a surprise. It's an odd tactic. And the issue that we're 
all gathered here for actually is that there's a proposed rule 
out there. If that rule goes into effect and it can't be 
defeated in a court challenge, we're living with a matter that 
all of this equipment and all of this activity is illegal.
    We were talking a little bit earlier about having laws on 
the books that don't get enforced. The matter that EPA at this 
juncture says well, we really don't intend to go after racecar 
drivers and their equipment, how could anyone rely on a 
situation where the activity they're engaged in which in many 
cases requires quite a lot of time and investment is illegal. 
It makes no sense.
    Mr. LaHood. Thank you.
    We're going to do a second round of questions here, and 
we'll recognize Mr. Posey for a second round.
    Mr. Posey. Thank you very much for the second round, Mr. 
Chairman.
    Mr. Yacobucci, would you agree with the following 
statement: Since 1970, when the Clean Air Act was enacted, 
industry and enthusiasts have had no doubt that it is legal to 
modify and race a street vehicle as a racecar as a 
multibillion-dollar marketplace attests.
    Mr. Yacobucci. Sir, in general I would agree with that. I 
think that most drivers--and this is anecdotal from my own 
speaking with people who are in amateur racing. I would say 
most folks probably think--or think that what they are doing is 
legal. But I do know of some folks who basically say yeah, I'm 
pretty sure this is a violation but, you know, okay.
    Mr. Posey. Like what? Give me an example? Who would think 
it's a violation?
    Mr. Yacobucci. I know some racers who've modified their 
vehicles who have basically said that their interpretation is 
that this is a violation that since they are modifying their 
street vehicle and they have not gotten some sort of exemption 
from the EPA explicitly, that they are maybe in violation of 
the standards.
    Mr. Posey. See, I know hundreds, if not thousands, of 
people who race, and I don't know any of those.
    Mr. Yacobucci. I think it is the vast minority, sir.
    Mr. Posey. When we talk about asides, you know, if EPA 
succeeded in destroying this industry where people safely for 
the public and otherwise compete on private property, it would 
just be devastating to force that back onto the nation's 
highways and byways and side streets just by trying to harm an 
industry, you know, unfairly.
    Mr. Sheheen, would it be fair to say that under the 
proposed rule, the Sports Car Club of America, Lemans, tractor 
pulls, et cetera would all become illegal?
    Mr. Sheheen. Yes. This would greatly impact all of those 
divisions and many, many more. In kind of addition to what Mr. 
Yacobucci was saying, in all the different garage areas, pit 
areas, paddocks that I've been in, I have never met a racer who 
has ever thought that they were illegal with anything that the 
EPA was proposing. They might wonder if they're going to meet 
the tech inspector's rulebook as to whether or not they've got 
too much weight shifted to one side of the car or the other, 
but never have I ever been in a conversation from the very top 
levels of motorsport to the very bottom layers where anybody 
has ever even discussed the EPA and what the regulations are 
and how it might impact motorsports until this came out, and 
when this came out, everybody, for lack of a better way of 
putting it, freaked out because they could not believe that 
this was out there or a potential problem for them. So no, 
rulebook-wise, nobody ever worried about this particular rule, 
but yes, in answer to your original question, all of those 
divisions and so many more from the very top to the very bottom 
would be impacted.
    Mr. Posey. Thank you.
    Now, Mr. Kersting, would you explain the difference between 
defeat devices and racing equipment? The EPA seems to be 
fixated on defeat devices.
    Mr. Kersting. Right. We talked about that just a moment 
ago. Parts for racing, you don't have to be concerned about the 
emissions impact. A defeat device by definition is a device or 
a modification that would have an impact to take a vehicle out 
of compliance, that is, a vehicle in use on the roadways. So as 
we discussed, there are clear statutory and regulatory 
provisions to address that, and that's where we believe the EPA 
needs to put the focus.
    Mr. Posey. It just seems like common sense. If the effort 
is to attack defeat devices, you just enforce the law against 
defeat devices that is already in effect, and why mention 
anything else? I just wondered if anyone else could tell us 
that.
    Mr. Kersting. It's something that--again, we're here 
because this is such an unusual step, and I believe the 
approach is so misdirected that Congress reacted with proposed 
legislation within a couple of weeks of learning of this.
    Mr. Posey. Well, there's always going to be the omnipresent 
offenders of the nonexistent problems of the people, and thank 
you, Mr. Chairman, for the second round.
    Mr. LaHood. Thank you, Mr. Posey.
    The Chair now recognizes Mr. Beyer for five minutes.
    Mr. Beyer. I'd like to first clarify Ranking Member 
Johnson's testimony about the EPA being invited. Up until March 
4th, the Minority Committee staff was under the assumption that 
the Majority actually intended to invite the EPA because it 
made the most sense to have them here. When they found out on 
March 4th that the Majority wasn't going to invite, they went 
to the EPA, who said that it was going to take three weeks to 
identify a witness, to write the testimony, then they have to 
clear both the agency and clear the OMB, and that everybody 
already apparently knows this is a three-week process. So 
that's why they're not here.
    I do hope that if we are the Committee of markup for H.R. 
4715 that the EPA has a chance to talk about the implications 
of 4715 on the people we actually want to enforce the law 
against, not the racecar drivers.
    By the way, I also want to clearly resist the idea that our 
job here is to demonize the EPA. I know they were referred to 
as despicable recently. You know, the EPA reopened comments, a 
sign of good faith. I think it's pretty clear that the EPA 
since 1970 has thought that this was the law, that it wasn't a 
matter of burying something that was brand new. It was a 
clarification in an overall rule stuff. I think it's 
unfortunate that we keep making the EPA the bad guy here, 
especially when they've never enforced this against racecar 
drivers and there was never any intention to move forward and 
take it against racecar drivers.
    I do think that we need to be careful about the egregious 
cases, as Mr. Kersting mentioned, but let me quote--I think my 
friend Mr. Posey says that things of no importance to the 
general public. Essentially we were talking about the fear that 
there might be enforcement rather than actual reality right 
now.
    Mr. Yacobucci, the California Air Resources Board has a 
program that permits aftermarket auto parts manufacturers to 
get their parts certified by California under an executive 
order. This shows that their installations would be compliant 
with the Clean Air Act and not violate emissions control 
regulations but they also have a program to grant exemptions 
for compliance with these regulations for competition-only 
racecars. Do you believe the California laws on this issue 
could be a roadmap for federal legislation? Is there something 
we could learn from what California does that would help us?
    Mr. Yacobucci. I mean, certainly we can learn from any 
policy, you know, state or local or federal, to help us write 
new policy. Clearly, California has a structure that works for 
them, and the question going forward would be, you know, either 
under this stat--I'm sorry--under the proposed bill or under 
existing statute whether EPA if they were to grant or have 
imposed upon them from the legislation an exemption for racing 
vehicles, the next question would be what would be the 
processes for exempting specific vehicles, for example, would 
the agency require registration similar to that for imported 
racing cars where the vehicle owner submits the VIN number, 
information about the vehicle's characteristics for racing, 
things that make it non-road legal, and then basically would 
that information be maintained in a database where a parts 
supplier could then query the database and say we are selling 
this part to this owner of vehicle XYZ and it is thus checked 
off so that there's some sort of verification process.
    On the other end of the spectrum, the way things are done 
right now with competition non-road vehicles is largely based--
or is based on owner self-compliance, and as I said, to our 
knowledge, EPA doesn't maintain a database. So there's a real 
range of how this could be implemented whether it's under 
existing statute, if it was determined that existing statute 
was sufficient, or if new statute is required, something like 
H.R. 4715. There's a real range of how that would be 
implemented or could be implemented.
    Mr. Beyer. Thank you.
    Mr. Kersting, a short question. Do folks who modify their 
racecars, as Mr. Sheheen talked about, the many, many people, 
do they typically work with their local DMVs to brand the 
title, get rid of the private tags they'd have to drive it on 
the streets?
    Mr. Kersting. I think that the matter of decommissioning, 
so to speak, a vehicle is a state-by-state matter, and I can't 
say I'm familiar with it in all states. But I believe that 
removing the plates, discontinuing registration are typically 
the sort of things that take a vehicle officially out of use as 
a motor vehicle. For example, I think state insurance laws vary 
on whether and when a vehicle needs to be insured and so forth, 
and those are the sort of things that I think we could look to 
to say okay, this vehicle's officially out of use.
    Mr. Beyer. Okay. Great. All right. Thank you very much.
    Mr. Chair, I yield back.
    Mr. LaHood. Thank you, Mr. Beyer.
    Without objection, the email from the Minority staff 
requesting that the Chairman invite the witness from CRS and 
the email sent to all Committee staff and Members containing 
the list of invited witnesses are entered into the record.
    [The information appears in Appendix I]
    Mr. LaHood. I want to thank the witnesses for their 
testimony here today and look forward to our dialog on this.
    The record will remain open for two additional weeks----
    Mr. Beyer. Mr. Chair, a point of----
    Mr. LaHood. --for additional comments and written questions 
from Members.
    Mr. Beyer. Will the Chair yield?
    Mr. LaHood. And at this time the hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
